No 20

SUPREME COURT OF THE UNITED STATES

CERTIFICATE OF COMPLIANCE

MOAZE IBRAHIM,
Petitioner, vs.
UNITED STATES OF AMERICA
Respondent
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 3189 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 17, 2020

No 20

SUPREME COURT OF THE UNITED STATES

CERTIFICATE OF SERVICE

MOAZE IBRAHIM,
Petitioner, vs.
UNITED STATES OF AMERICA
Respondent
As required by Supreme Court Rule, I certify that three (3) copies of this petition for
a writ of certiorari was served on United States Attorney Office for the Northern
District of New York 100 S Clinton St #9000, Syracuse, NY 13261

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 17, 2020

